CERTIFICATE OF SERVICE
I hereby certify that on the 4th day of December 2019, on behalf of Kimberly
Collins, I electronically filed an Application For An Extension Of Time To File A
Petition For A Writ Of Certiorari To The United States Court Of Appeals For the
Fourth Circuit with the Clerk of the Court. I also e-mailed on the same date a copy
of application, and sent by Federal Express for express delivery on December 5th,
2019 to:
Toby Jay Heytens
Direct: 804-786-7240
Email: theytens@oag.state.va.us
OFFICE OF THE ATTORNEY GENERAL OF VIRGINIA
202 North 9th Street
Richmond, VA 23219-0000
Michelle Shane Kallen
Direct: 804-786-7704
Email: MKallen@oag.state.va.us
OFFICE OF THE ATTORNEY GENERAL OF VIRGINIA
202 North 9th Street
Richmond, VA 23219-0000
Counsel for Respondent Gwendolyn Thornton, Ph.D.
s/ Richard F. Hawkins, III
Virginia Bar Number: 40666
THE HAWKINS LAW FIRM, PC
2222 Monument Avenue
Richmond, Virginia 23220
(804) 308-3040 (telephone)
(804) 308-3132 (facsimile)
Email: rhawkins@thehawkinslawfirm.net
Counsel of Record for Applicant

